No. 19-1214
MARTY FRIEND,
Petitioner,

v.
INDIANA,

Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a digital copy of the Brief of Amicus Curiae National
Association of Criminal Defense Lawyers in Support
of Petitioner was sent to counsel for the Petitioner and
Respondent by electronic mail on May 14, 2020. The
parties have consented to electronic service.
J. Carl Cecere
Cecere PC
6035 McCommas Boulevard
Dallas, TX 75206
(469) 600-9455
ccecere@cecerepc.com
Counsel for Petitioner

Thomas M. Fisher
Office of the Attorney General
Indiana Government Center South, Fifth Floor
302 West Washington Street
Indianapolis, IN 46204
(317) 232-6255
Tom.fisher@atg.in.gov
Counsel for Respondent
/s/ Benjamin P. Chagnon
Counsel of Record

